                                                   NATIONAL, SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I0510006&Lf.                                                                    Page 1 of 1
         II
               i'




          The National Science Foundation Office of Inspector General conducted a proactive review of
          U S P ~ S grants.
                    I        As part of the review, we examined the USP award' issued to the subject
          grantee institution2.

          Our proactive review of the grant jacket identified that the grantee institution had been the
          subject of a 2002 NSF audit that was resolved by CAAR after the institution developed and
               I
          implemented   policies and procedures for expenditure approval and cost-share. Thereafter, the
          institution was late in providing a cost-share report. This caused us to question whether the
          policies and procedures had been implemented into the institutions practices. Interview of the
          Program ~ i r e c t o and
                                r ~ review of journal entries and communications between NSF and the
          grantee demonstrate that the there is no significant problem with compliance at the institution.

          Based upon the above, this case is closed without further action.




        -1

              It
NSF OIG Form 2 (1 1/02)
